Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  NIH GRANTS MANAGEMENT:
       LATE AWARDS




                    Inspector General

                      May 2004
                    OEI-01-03-00020
               Office of Inspector General�
                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties. The OI also oversees
state Medicaid fraud control units, which investigate and prosecute fraud and patient
abuse in the Medicaid program.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the
health care community, and issues fraud alerts and other industry guidance.
        A B S T R A C T 





                              Grants management is a priority area for both the Secretary of Health
                              and Human Services and the Office of Inspector General. In fiscal year
                              (FY) 2002, the National Institutes of Health (NIH) funded $16.8 billion
                              in extramural research grants. Noncompeting continuation (type 5)
                              awards account for the majority, about 70 percent, of NIH’s extramural
                              research funding. The timeliness of type 5 awards is an important
                              aspect of grants management at NIH. NIH policy is to issue all grant
                              awards prior to the beginning of the budget period (i.e., the time period
                              for which NIH provides funding, usually 12 months). NIH awarded
                              35 percent of type 5 awards late for 3 common funding mechanisms in
                              FYs 2000 through 2002, accounting for $9.2 billion in late funding.
                              Potential factors contributing to late awards are grantees submitting
                              late applications, grantees submitting incomplete applications, process
                              delays at NIH, and late congressional budget appropriations. For
                              example, 55 percent of awards that were 30 days or more late at
                              3 institutes had late applications, 39 percent had incomplete
                              applications, and 12 percent had process delays. Late awards can
                              create problems at NIH and, to some extent, at grantee institutions.
                              NIH has several initiatives planned or underway to help facilitate
                              timely type 5 awards. In addition to these, we recommend that NIH
                              develop a centralized system to monitor late type 5 awards and address
                              late awards more systematically by focusing on grantee institutions.
                              NIH concurred with our recommendations.




O E I - 01 - 03 - 0 0 0 2 0   N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S             i
        E X E C U T I V E                                           S U M M A R Y 




                              OBJECTIVE
                              To determine the extent to which the National Institutes of Health
                              awards noncompeting continuation (type 5) awards on time.


                              BACKGROUND
                              The National Institutes of Health (NIH) is the largest Federal funder of
                              health research and development. In fiscal year (FY) 2002, NIH funded
                              $16.8 billion in extramural research grants supporting a total of 43,520
                              awards. Extramural grants fund scientists and organizations outside
                              the agency. NIH awards grants through 24 distinct institutes and
                              centers (institutes) that are responsible for the day-to-day management
                              and oversight of their grants.
                              Typically, NIH awards grants with a multi-year project period (i.e., the
                              total time for which NIH agrees to support the project), divided into budget
                              periods. As a budget period comes to a close, the grantee must submit an
                              application to receive funding for the next budget period. A noncompeting
                              continuation (type 5) award renews funding for a project that is
                              currently underway and does not require peer review. Type 5 awards
                              represented about 70 percent of NIH’s extramural research grant funding
                              in FY 2002, totaling almost $12 billion and supporting 30,343 grants.
                              Grants management is a priority area for both the Secretary of Health
                              and Human Services and the Office of Inspector General. Given that
                              type 5 awards represent the majority of NIH’s extramural research
                              funding, their timeliness is an important aspect of grants management
                              at NIH. NIH policy is to issue all grant awards prior to the beginning
                              date of the budget period of the award, provided that the grantee has
                              submitted the necessary documentation on time. A late type 5 award
                              results in a situation in which NIH has not issued funding for the next
                              budget period until after the end of the previous year’s budget period.
                              This causes a gap in funding, although grantees may incur preaward
                              costs (at their own expense).
                              This inspection is based on multiple sources of data: analysis of the 3
                              most common type 5 funding mechanisms for FYs 2000 through 2002, a
                              file review of 272 late type 5 awards, a survey of grantee institutions
                              that resulted in 111 responses, and interviews with grants management
                              staff.




O E I - 01 - 03 - 0 0 0 2 0   N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S              ii
E    X      E      C       U      T   I     V      E           S     U      M      M       A     R     Y


                                          A companion report, NIH Grants Management: Late Closeouts (OEI-01-
                                          03-00021), applies a similar methodology to determine the extent to
                                          which NIH closes out grants on time.


                                          FINDINGS
                                          NIH awarded about one -third of awards late for three common
                                          funding mechanisms in Fiscal Years 2000 through 2002. NIH
                                          awarded 35 percent of its 60,993 type 5 research project awards (R01),
                                          program awards (P01), and cooperative agreements (U01) late in FYs
                                          2000 through 2002. These late type 5 awards combined represented
                                          $9.2 billion in funding to grantee institutions. On average, these
                                          awards were 24 days late. The proportion of late type 5 awards was
                                          relatively constant across the years in our sample, but varied by
                                          institute and among the three most common funding mechanisms.
                                          Potential factors contributing to late awards are grantees
                                          submitting late applications, grantees submitting incomplete
                                          applications, process delays at NIH, and late congressional budget
                                          appropriations. Fifty-five percent of type 5 awards at 3 institutes that
                                          were 30 days or more late had a late application and 39 percent had
                                          applications that were missing 1 or more required elements. Twelve
                                          percent of the awards that were 30 days or more late also had internal
                                          process delays, such as delayed reviews, lost files, and data entry errors.
                                          Institutes may also have been delayed in issuing funding for type 5
                                          awards at times when Congress was late in approving the agency’s
                                          budget.
                                          Late awards can create problems at NIH and, to some extent, at
                                          grantee institutions. NIH staff can quickly become inundated with
                                          type 5 awards, between overcoming the backlog caused by late awards
                                          and dealing with each month’s incoming applications. Twenty-five
                                          percent of grantee institutions noted that late type 5 awards have
                                          caused problems for their institutions to a large or moderate extent.
                                          Grantees cited increased burden on grants administrators and having to
                                          use funding from other sources as particular problems.
                                          NIH has several initiatives planned or underway to help facilitate
                                          timely awards. NIH is in the process of launching an automated,
                                          online research administration system, which will electronically notify
                                          grantees of application deadlines, allow grantees to submit applications
                                          and financial status reports electronically, and enable grants
                                          management staff to electronically review and approve type 5

    O E I - 01 - 03 - 0 0 0 2 0           N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S             iii
E    X      E      C       U      T   I     V      E           S     U      M      M       A     R     Y


                                          applications. NIH also has a workgroup that is developing approaches
                                          to improving compliance among grantees with patterns of late type 5
                                          applications, as well as preventing future delinquencies.


                                          RECOMMENDATIONS
                                          To facilitate timely awards, we recommend that NIH

                                             •	      Develop a centralized system to monitor late awards and to identify
                                                     and address the key problems and bottlenecks that are causing late
                                                     awards
                                             •	      Address late awards more systematically by focusing on grantee
                                                     institutions, specifically by following up with a key administrator at
                                                     grantee institutions with patterns of late applications or late
                                                     awards


                                          Agency Comments
                                          NIH reviewed a draft of this report and concurred with our
                                          recommendations. In its comments, NIH indicated additional steps that
                                          it is taking to address these issues.




    O E I - 01 - 03 - 0 0 0 2 0           N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S                   iv
�   T A B L E               O F                C O N T E N T S 




         A B S T R A C T . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



         E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii



         I N T R O D U C T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7



                       NIH awarded about one-third of awards late. . . . . . . . . . . . . . . . . . . . . . . . . . 7


                       Potential factors contributing to late awards. . . . . . . . . . . . . . . . . . . . . . . . . . 9


                       Late awards can create problems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


                       NIH has several initiatives planned or underway . . . . . . . . . . . . . . . . . . . . 13



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16



         A P P E N D I C E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18



                       Findings of the National Cancer Institute . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


                       Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


                       Confidence intervals. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


                       Late type 5 awards among all institutes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25


                       NIH’s Comments on the Draft . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30



         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

�       I N T R O D U C T I O N 



                              OBJECTIVE
                              To determine the extent to which the National Institutes of Health
                              awards noncompeting continuation (type 5) awards on time.


                              BACKGROUND
                              The National Institutes of Health (NIH) is the largest Federal funder of
                              health research and development. NIH grants support basic and
                              clinical research, research centers, scientific training and fellowships,
                              and construction projects.
                              Recent increases in appropriations have allowed NIH to significantly
                              increase its grant-making capacity over the past 5 years. In fiscal year
                              (FY) 2003, NIH received $27 billion in total funding, compared to $13.6
                              billion in FY 1998. The President’s proposed budget for FY 2004
                              requests $28 billion for NIH.
                              About 80 to 85 percent of NIH’s budget supports extramural grants.
                              Extramural grants fund scientists and organizations outside the agency.
                              In FY 2002, NIH’s total budget was $23.2 billion, of which NIH awarded
                              $19 billion in extramural grants. NIH awarded $16.8 billion to support
                              43,520 extramural research grants; the remaining $2.2 billion went to
                              support 6,196 other extramural grants, such as training and fellowship
                              grants. Combined, these funds supported about 49,700 extramural
                              grants to researchers affiliated with more than 2,800 universities,
                              hospitals, and other research facilities.
                              Grants Administration
                              Grants management and oversight are critical to ensure that Federal
                              funds are used properly. Grants management is a priority area for both
                              the Secretary of Health and Human Services and the Office of Inspector
                              General, and is among the top management challenges identified by the
                              Office of Inspector General for FY 2003.1 As the largest funder of health
                              research, NIH must have appropriate policies and procedures in place to
                              effectively and efficiently manage its grants. The recent increases in
                              NIH funding make it particularly important to ensure that NIH has the
                              proper infrastructure to handle its increased grant workload.
                              The general requirements for grants management at NIH are
                              government-wide standards set forth by the Office of Management and
                              Budget and codified in regulation by the Department of Health and



O E I - 01 - 03 - 0 0 0 2 0   N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S            1
I   N      T      R      O        D   U      C     T      I    O      N


                                          Human Services. 2 These regulations establish requirements for the
                                          financial and program management of each award.
                                          Additional requirements are provided in the NIH Guide for Grants and
                                          Contracts, the NIH Grants Policy Statement, and the NIH Manual. The
                                          NIH Guide for Grants and Contracts is the official publication of NIH
                                          policies, procedures, and availability of funds. The NIH Grants Policy
                                          Statement provides a general overview of the grant application and
                                          review process, including terms and conditions for NIH grant awards.
                                          (NIH can establish other terms for particular institutions.) It
                                          emphasizes the importance of good grants management by stating,
                                          “NIH, as a Federal grantor agency, is responsible to Congress and the
                                          U.S. taxpayer for carrying out its mission in a manner that not only
                                          facilitates research but also does so cost effectively and in compliance
                                          with applicable rules and regulations.”3 The NIH Manual contains NIH
                                          policies regarding internal operations, including requirements for the
                                          awarding and oversight of extramural grants.
                                          NIH’s Office of Extramural Research is central to the development and
                                          maintenance of agency policies regarding extramural grants. It also
                                          develops program guidelines and information systems related to
                                          extramural research grants administration.
                                          NIH awards grants through 24 distinct institutes and centers (hereafter
                                          referred to as institutes) that are responsible for the day-to-day
                                          management and oversight of their grants. 4 Each institute has its own
                                          grants management office to handle administrative functions and to
                                          conduct ongoing monitoring of its grants. Grants management
                                          specialists in these offices are primarily responsible for reviewing
                                          applications for administrative content and compliance with key laws
                                          and regulations, reviewing all correspondence and reports from
                                          grantees, and providing technical assistance to grantees as needed
                                          throughout the grant process. A chief grants management officer
                                          oversees the specialists. Each institute also has its own program office.
                                          Program officers establish scientific program goals and objectives, which
                                          serve as a guide for funding decisions, and monitor scientific issues that
                                          arise throughout the course of the grant.
                                          Typically, NIH awards grants with a project period that spans several
                                          years. The project period is the total time for which NIH agrees to support
                                          the project. NIH divides a multi-year project period into budget periods,
                                          usually 12-month increments. The budget period may start at any point
                                          during the year. Grants management staff assign project periods and

    O E I - 01 - 03 - 0 0 0 2 0           N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S            2
I   N      T      R      O        D    U      C     T      I    O      N



                                           budget periods for each grant. Grants management staff within each
                                           institute negotiate the terms of the award with the grantee. As each
                                           budget period comes to a close, the grantee must submit an application to
                                           the institute in order to update the institute about the status of the
                                           research and receive funding for the next budget period.
                                           Type 5 Awards

                                           A type 5 (noncompeting continuation) award renews funding for a project
                                           that is currently underway and does not require peer review.5 In FY 2002,
                                           NIH awarded 30,343 type 5 awards, totaling almost $12 billion. Type 5
                                           awards accounted for about 70 percent, in terms of both number of awards
                                           and amount of funding, of all extramural research funding that NIH
                                           awarded in FY 2002. (In FY 2002, NIH awarded $16.8 billion in
                                           extramural research grants supporting 43,520 awards.)

                                           The three most common funding mechanisms for type 5 extramural
                                           research grants are R01, P01, and U01.6 Combined, these 3 funding
                                           mechanisms accounted for about 72 percent, in terms of number, of all
                                           type 5 extramural research grants NIH awarded in FY 2002 and $8.5
                                           billion in funding. (See Table 1.) Research project grants, otherwise
                                           known as R01 grants, support individual research projects led by one
                                           primary investigator. Research program projects, or P01 grants,
                                           support groups of researchers who are all conducting studies related to
                                           a particular research objective. Cooperative agreements, or U01 grants,
                                           are partnerships between researchers and NIH.



                          Table 1. Number of Type 5 Awards Issued by Year for the Three Most Common
                          Funding Mechanisms

                                      Funding Mechanism                              FY 2000            FY 2001   FY 2002   Total

                          Research project (R01)                                      17,218            18,964    20,394    56,576

                          Program project (P01)                                            703            752       780      2,235

                          Cooperative agreement (U01)                                      553            744       885      2,182

                          Overall Total                                               18,474            20,460    22,059    60,993

                          Source: OIG analysis of NIH data from IMPAC II, 2003




    O E I - 01 - 03 - 0 0 0 2 0            N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S                                3
I   N      T      R      O        D   U      C     T      I    O      N


                                          In order to receive a type 5 award, the grantee must submit to the
                                          institute an Application for Continuation of a Grant (PHS-2590) at least
                                          60 days before the end of its current budget period for a paper application,
                                          or 45 days before the end of its current budget period for an online
                                          application.7 The principal investigator (the scientist who is responsible
                                          for the direction and conduct of the research) must submit a progress
                                          report, which summarizes the grantee’s work on the project to date. The
                                          grantee institution (the organization where the principal investigator is
                                          affiliated) may also include a detailed description of the budget for the
                                          project, if the researchers have made significant changes since NIH
                                          initially approved the research, and assurances that the research protocol
                                          meets NIH standards for the use of human subjects and animals, where
                                          applicable.
                                          Late Type 5 Awards. The NIH Manual states that “it is the policy of the
                                          NIH to issue all grant awards in a timely manner, which means prior to
                                          the beginning date of the budget period of the award,” provided that the
                                          grantee has submitted the necessary documentation on time. 8
                                          A late type 5 award results in a situation in which NIH has not issued
                                          funding for the next budget period until after the end of the previous
                                          year’s budget period. This causes a gap in funding.
                                          Many grantee institutions may continue to incur preaward costs, at their
                                          own expense, if the agency is late in issuing an award. 9 Essentially,
                                          grantee institutions who authorize such spending borrow against their
                                          expectations of the funding for the next budget period, anticipating that
                                          they will be able to recoup their spending once NIH issues the new award.
                                          Until NIH issues the award, however, that reimbursement is not
                                          guaranteed, leaving grantee institutions at risk for any expenses they
                                          incur during this period. Further, some grantee institutions are unable to
                                          cover their researchers’ expenses in the interim.
                                          Given that type 5 awards represent the majority of NIH’s extramural
                                          research funding, their timeliness is an important aspect of grants
                                          management at NIH. Data from the National Cancer Institute, which has
                                          an active monitoring system in place to identify late awards and their
                                          causes, showed that 40 percent of its type 5 awards were late in FY 2001,
                                          and 33 percent of its type 5 awards were late in FY 2002. In each year,
                                          roughly one-third of the late awards were due to internal delays, and two-
                                          thirds were due to the grantees. (See Appendix A for more information.)




    O E I - 01 - 03 - 0 0 0 2 0           N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S             4
I   N      T      R      O        D   U      C     T      I    O      N



                                          METHODOLOGY
                                          We based our analysis of late type 5 awards on five sources of data. For
                                          a detailed description of our methodology and confidence intervals, see
                                          Appendix B and C.
                                          First, we analyzed 60,993 records in NIH’s database system for
                                          managing and monitoring grants, known as the Information for
                                          Management, Planning, Analysis, and Coordination (IMPAC II), for all
                                          R01, P01, and U01 awards issued in FY 2000, 2001, and 2002.
                                          Second, we reviewed NIH’s files for a stratified sample of 272 active
                                          research project (R01) awards in which NIH had issued type 5
                                          funding at least 30 days late between FY 2000 and FY 2002. We
                                          limited our population to three of the largest institutes: the National
                                          Heart, Lung, and Blood Institute, the National Institute of Allergy
                                          and Infectious Diseases, and the National Institute of General
                                          Medical Sciences. We excluded the largest institute, the National
                                          Cancer Institute, because it already has an active monitoring system
                                          in place to identify late awards and their causes. We stratified our
                                          sample by institute. The sample included all 76 awards from the
                                          National Institute of General Medical Sciences and random samples
                                          of 100 awards each from the 220 National Heart, Lung, and Blood
                                          Institute awards and the 174 National Institute of Allergy and
                                          Infectious Diseases that met our criteria. Four awards in our sample
                                          were missing files at the National Institute of Allergy and Infectious
                                          Diseases, so the final number of awards included in our file review
                                          was 272.
                                          Third, we requested the specific operating procedures related to type 5
                                          applications and type 5 awards for all 24 institutes with grant-making
                                          authority.
                                          Fourth, we selected a simple random sample of 135 grantee institutions
                                          from the 375 locations that received 10 or more research grants from
                                          NIH in FY 2002. We received 111 replies to our survey, for a response
                                          rate of 82 percent.
                                          Finally, we interviewed grants management staff at the National Heart,
                                          Lung, and Blood Institute, the National Institute of Allergy and
                                          Infectious Diseases, and the National Institute of General Medical
                                          Sciences, as well as staff in the Office of Extramural Research.




    O E I - 01 - 03 - 0 0 0 2 0           N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S                5
I   N      T      R      O        D   U      C     T      I    O      N


                                          Standards

                                          We conducted this inspection in accordance with the Quality Standards 

                                          for Inspections issued by the President’s Council on Integrity and 

                                          Efficiency. 



                                          A COMPANION REPORT
                                          This report is one of two that resulted from our inquiry. Our companion
                                          report, NIH Grants Management: Late Closeouts (OEI-01-03-00021),
                                          applies a similar methodology to determine the extent to which NIH
                                          closes out grants on time. The closeout process occurs when the grant
                                          project period ends, or when a grant transfers to another institution.
                                          Grant closeouts serve as the final point of accountability for the grantee.




    O E I - 01 - 03 - 0 0 0 2 0           N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S             6
�           F I N D I N G S 




NIH awarded about one-third of awards late for                          Between FY 2000 and FY 2002,
 three common funding mechanisms in Fiscal                              NIH awarded 35 percent of its
                                    Years 2000 through 2002.            60,993 type 5 research project (R01)
                                                                        awards, program project (P01)
                                  awards, and cooperative agreement (U01) awards late. (See Table 2.)
                                  These late awards account for $9.2 billion in NIH funding to grantee
                                  institutions. This is 43 percent of NIH’s total type 5 funding for that 3-
                                  year period.

Table 2. Proportion of Late Awards by Funding Mechanism and Year

         Funding Mechanism                             FY 2000                    FY 2001          FY 2002        FY 2000 – FY 2002 Combined

Research project (R01)                                    31%                        36%            31%                      33%

Program project (P01)                                     62%                        66%            55%                      61%

Cooperative agreement (U01)                               72%                        80%            72%                      75%

R01, P01, and U01 Combined                                33%                        39%            34%                      35%

Source: OIG analysis of NIH data from IMPAC II, 2003


                                  Twenty-eight percent of these late awards were at least a month late. The
                                  late awards ranged between 1 day late and 603 days late. On average, late
                                  type 5 awards were issued 24 days after the end of the previous budget
                                  period. (See Table 3.)


                                  Table 3. Extent of Delay in Issuing Late Type 5 Awards, FY 2000–FY 2002

                                                 Weeks Late                               Number of Late Awards       Percent of All Late Awards

                                  Less than 1 week                                                6,586                          31%

                                  Between 1 and 2 weeks                                           4,394                          20%

                                  Between 2 and 4 weeks                                           4,506                          21%

                                  Between 4 and 8 weeks                                           3,584                          17%

                                  More than 8 weeks                                               2,425                          11%

                                  Overall Total                                                  21,495                         100%

                                  Source: OIG analysis of NIH data from IMPAC II, 2003




    O E I - 01 - 03 - 0 0 0 2 0   N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S                                                 7
  F    I    N       D      I        N     G    S


                                              The proportion of late awards was relatively constant over the past 3 years.
                                              NIH awarded 33 percent of all type 5 awards late in FY 2000. In FY
                                              2001, it awarded 39 percent of all type 5 awards late. And in FY 2002,
                                              it awarded 34 percent of all type 5 awards late. (See Table 2 on p. 7.)
                                              The proportion of late awards by institute ranged from 10 percent to 70
                                              percent. The National Library of Medicine had the greatest proportion
                                              of late type 5 awards between FY 2000 and FY 2002, at 70 percent.
                                              However, the National Library of Medicine only issued 82 type 5 awards
                                              during that time period. The National Institute on Alcohol Abuse and
                                              Alcoholism and the National Institute of Deafness and Other
                                              Communication Disorders had the smallest proportion of late type 5
                                              awards between FY 2000 and FY 2002, at 10 percent. Each of those 2
                                              institutes issued more than 1,000 type 5 awards during that time
                                              period. (See Appendix D for the proportion of late awards by institute.)
                                              Among the 10 institutes that issued the most type 5 awards between
                                              FY 2000 and FY 2002, 4 institutes awarded 50 percent or more of their
                                              type 5 awards late. (See Table 4.) The frequency of lateness at the
                                              remaining top institutes ranged from 15 percent to 38 percent.

Table 4. Proportion of Late Awards at the 10 Institutes that Issued the Most Type 5 Awards, FY
2000 - FY 2002

                                                                                               Number of    Percent of Awards   Average Number
                                        Institute
                                                                                              Late Awards    That Were Late      of Days Late

Nat. Cancer Inst.                                                                                  3,076          37%                 31

Nat. Heart, Lung, & Blood Inst.                                                                    2,788          36%                 18

Nat. Inst. of Neurological Disorders & Stroke                                                      2,472          50%                 23

Nat. Inst. of Diabetes & Digestive & Kidney Diseases                                               2,111          38%                 31

Nat. Inst. of Allergy & Infectious Diseases                                                        1,717          28%                 24

Nat. Inst. of Mental Health                                                                        1,871          56%                 26

Nat. Inst. of Child Health & Human Development                                                     1,463          50%                 34

Nat. Inst. on Drug Abuse                                                                           1,216          52%                 20

Nat. Inst. of General Medical Sciences                                                             1,189          15%                 13

Nat. Eye Inst.                                                                                     1,051          47%                 22

Source: OIG analysis of NIH data from IMPAC II, 2003




      O E I - 01 - 03 - 0 0 0 2 0             N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S                                        8
 F    I    N       D      I        N   G    S


                                           Cooperative agreement awards were most likely to be awarded late. NIH
                                           awarded 75 percent of type 5 cooperative agreement awards, 61 percent of
                                           type 5 program project awards, and 33 percent of type 5 research project
                                           awards late between FY 2000 and FY 2002. (See Table 2 on p. 7.) Because
                                           research project awards account for the largest proportion of awards, they
                                           drive down the overall proportion. The fact that a greater proportion of
                                           cooperative agreements and program grants were awarded later than
                                           research grants may reflect that cooperative agreements and program
                                           grants are more complex funding mechanisms, involving research at
                                           multiple sites with multiple primary investigators.
                                           Eight percent of grantee institutions accounted for 56 percent of all late
                                           awards. NIH awarded type 5 research project (R01) awards, program
                                           project (P01) awards, and cooperative agreement (U01) awards to 892
                                           grantee institutions between FY 2000 and FY 2002. Yet, 50 of these
                                           grantee institutions accounted for 56 percent of the late type 5 awards
                                           (and 56 percent of type 5 awards overall). Given that some grantee
                                           institutions are so large that they receive several thousand grants from
                                           NIH each year, while others receive only a few, it is not surprising that a
                                           small number of these large grantees made up more than half of all late
                                           awards during this time. These large grantees had the largest absolute
                                           number of late awards, but this does not necessarily indicate that they had
                                           a greater proportion of late awards than other grantees.


Potential factors contributing to late awards are                                                       NIH does not have a centralized
grantees submitting late applications, grantees                                                         system to monitor the underlying
  submitting incomplete applications, process                                                           causes of late type 5 awards.
                                                                                                        However, our analysis found four
     delays at NIH, and late Congressional budget
                                                                                                        potential factors that may
                                                                         appropriations.
                                                                                                        contribute to late awards.
                                           Grantees submit applications late more than half of the time where data is
                                           available. NIH requires grantees to submit type 5 applications 60 days
                                           prior to the end of the current budget period. NIH’s grants management
                                           database had application receipt dates for 65 percent (39,939) of the type 5
                                           awards for the 3 years in our review. Sixty-four percent of those
                                           applications were late. On average, these applications were 44 days late.
                                           In 38 percent of the cases with late applications, the resulting award was
                                           late. On average, those awards were 26 days late.
                                           In addition, we reviewed the files for 272 active type 5 research project
                                           (R01) awards that were at least 30 days late, at the National Institute of

     O E I - 01 - 03 - 0 0 0 2 0           N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S                                 9
F    I    N       D      I        N   G       S


                                          General Medical Sciences, the National Institute on Allergy and Infectious
                                          Diseases, and the National Heart, Lung, and Blood Institute. Fifty-five
                                          percent of the applications were received past the 60-day deadline. On
                                          average, these applications were 43 days late.
                                          NIH’s IMPAC system now automatically generates letters to grantee
                                          institutions when an application is more than 15 days late. During the
                                          time period in our review, however, this system was not yet in place,
                                          leaving the institutes responsible for following up with delinquent
                                          grantees. Fourteen institutes provided us with their follow-up procedures
                                                                *
                                          for late applications. These generally called for the institute to send the
                                          grantee a reminder letter between 10 and 16 days after the application
                                          due date, requesting the information.
                                          Grantees may be late in submitting type 5 applications for several reasons,
                                          according to NIH officials and grantee institutions. First, principal
                                          investigators are sometimes slow to provide information, because they are
                                          busy conducting the research and balancing additional responsibilities,
                                          such as teaching. Second, some grantees do not understand the NIH
                                          requirements for type 5 applications. Grants specialists reported that
                                          grantee institutions with less experience with NIH grants may especially
                                          encounter this problem. Third, some grantee institutions may not have
                                          adequate systems in place to monitor type 5 award deadlines.
                                          Grantees often submit applications that are missing financial information or
                                          assurances of research integrity. The instructions for the Application for
                                          Continuation of a Grant (PHS-2590) lay out the required elements of the
                                          type 5 application. The institutes cannot process a type 5 application until
                                          the grantee submits all of the required elements.
                                          Thirty-nine percent of the awards that were 30 days or more late at the
                                          National Institute of General Medical Sciences, the National Institute of
                                          Allergy and Infectious Diseases, and the National Heart, Lung, and Blood
                                          Institute lacked one or more of the required elements. The most common
                                          missing elements were human subjects assurances (49 percent), financial
                                          status reports (25 percent), and animal research assurances (23 percent).
                                          Grantees may submit incomplete applications to show that they are
                                          making an effort to meet NIH’s deadline, even if they have not collected all


                                          *
                                              Since the time of our review, NIH has centralized its tracking and processing of type 5
                                              applications, such that individual institute’s procedures are being replaced by standard
                                              operating procedures.



    O E I - 01 - 03 - 0 0 0 2 0           N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S                                     10
F    I    N       D      I        N   G    S


                                          of the required information. However, institute staff told us that they
                                          would prefer grantees to notify the institute of the delay, and agree on a
                                          revised due date.
                                          Five institutes provided us with specific procedures related to follow-up for
                                          incomplete applications. Their guidelines instruct grants management
                                          staff to contact the grantee institution to request the missing information,
                                          but do not provide a timeline for follow-up.
                                          Incomplete applications should become less of a problem once NIH
                                          implements its system for submitting applications electronically, which is
                                          currently being tested. The electronic system will reject an application if
                                          one or more of the required elements is missing.
                                          Heavy workload and processing problems at NIH limit the ability of grants
                                          management staff to review applications. Twelve percent of the late
                                          awards that were 30 days or more late at the National Institute of General
                                          Medical Sciences, the National Institute of Allergy and Infectious
                                          Diseases, and the National Heart, Lung, and Blood Institute had process
                                          delays on the part of institute staff: 6 percent had delayed reviews by staff;
                                          4 percent had either a lost file or data entry problem; and 2 percent
                                          experienced other types of delays.
                                          Institute staff may be responsible for hundreds of grants at a time, of
                                          many types and with different requirements. The size of this workload,
                                          compounded by other priorities such as issuing new competing awards,
                                          may lead to delays in the review of a type 5 application by either the
                                          project officer or the grants specialist. Several institute officials who we
                                          interviewed noted that this was a problem. Eleven percent of grantee
                                          institutions cited experience with delayed reviews, and another 17 percent
                                          cited problems with institute staffing in general as factors for late type 5
                                          awards. Eleven institutes provided us with the worksheets, checklists,
                                          flowcharts, or sets of instructions related to the processes that project
                                          officers and grants management specialists must follow in reviewing a
                                          type 5 application. Only one institute included a timeline for these
                                          processes, however.
                                          Processing problems can create delays if files are lost or data is incorrectly
                                          entered. Several institute officials said that they were aware of delays in
                                          routing the application to the project officer or grants specialist. Five
                                          percent of grantee institutions said that NIH had lost one of their type 5
                                          applications, and 4 percent of grantee institutions had experienced
                                          problems due to administrative errors such as computer failures.


    O E I - 01 - 03 - 0 0 0 2 0           N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S             11
F    I     N      D      I        N   G    S


                                          Institutes might also delay awards because of late congressional budget
                                          appropriations. Although NIH’s fiscal year begins on October 1, the
                                          agency’s budget may not be finalized for several months after that. In the
                                          meantime, the agency operates under continuing resolutions, which may
                                          allow spending at the same level as the previous fiscal year, or may
                                          restrict spending. Officials at the Office of Extramural Research cited late
                                          budget appropriations as a prominent cause of late type 5 awards, because
                                          many institutes tend to issue funding more conservatively under
                                          continuing resolutions, and some withhold funding altogether. However,
                                          institute staff who we spoke to seemed less concerned about the effect of
                                          continuing resolutions, and said that, in most years with continuing
                                          resolutions, they have been able to continue operating normally with
                                          respect to issuing type 5 awards.


               Late awards can create problems at NIH          Institute staff were concerned
         and, to some extent, at grantee institutions.        with  the added workload caused
                                                              by late awards. In addition,
                       grantee institutions noted that late awards created difficulties in terms
                       of the administration of their research.
                                          Grants management staff can become inundated with type 5 awards as late
                                          awards accumulate. The heavy workload caused by late awards can be
                                          difficult for institute staff to stay on top of, especially as they continue to
                                          deal with each month’s incoming type 5 applications, as well as the
                                          backlog. They depend on consistency and timeliness in issuing type
                                          5 awards to manage their workloads effectively.
                                          In addition, late awards often become time consuming when they require
                                          follow-up with the grantee institution. Among the awards that were
                                          30 days or more late at the National Institute of General Medical Sciences,
                                          the National Institute of Allergy and Infectious Diseases, and the National
                                          Heart, Lung, and Blood Institute with a late or incomplete application,
                                          60 percent included documentation that the institute followed up with the
                                          grantee.
                                          Grantee institutions reported problems for both researchers and
                                          administrators due to late awards. Twenty-five percent of grantee
                                          institutions reported that late type 5 awards have caused problems for
                                          their institutions to a large or moderate extent, and another 67 percent
                                          reported that late type 5 awards have caused problems to a small extent.
                                          In particular, 97 percent of grantee institutions indicated that the
                                          increased administrative burden was a problem for their institutions

    O E I - 01 - 03 - 0 0 0 2 0           N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S                12
F    I    N       D      I        N   G    S


                                          (27 percent said that this was a major problem). When an award is late,
                                          grants administrators must expend additional time and effort to
                                          communicate with NIH and, if necessary, obtain missing paperwork from
                                          primary investigators or business officials at their institution. In addition,
                                          75 percent of grantee institutions responded that having to use funding
                                          from other sources was a problem (26 percent said that this was a major
                                          problem). Grantee institutions also mentioned that late awards could
                                          create problems for primary investigators, in terms of delaying or slowing
                                          research temporarily (53 percent), creating difficulties for primary
                                          investigators in meeting scientific progress deadlines (49 percent), or
                                          stopping research permanently (7 percent). Sixty-one percent of the
                                          grantee institutions noted that late awards become a problem for them
                                          when they are awarded more than 1 month after the end of the previous
                                          budget period.
                                          To help mitigate these difficulties, NIH provides preaward authority,
                                          which allows grantee institutions to incur expenses before the award is
                                          issued. NIH also generally authorizes grantee institutions to carry over
                                          unused funds from the previous budget period. While these authorities
                                          can significantly lessen the effects of late type 5 awards for the conduct of
                                          research at some grantee institutions, other grantee institutions that
                                          cannot cover preaward expenses still face potentially serious constraints
                                          on their research. Further, coordinating preaward spending and carrying
                                          over funds creates additional work for administrators and business
                                          officials at these institutions.


                 NIH has several initiatives planned or   Staff at the Office of Extramural
         underway to help facilitate timely awards.       Research continue to emphasize to
                                                          grantees the importance of
                      submitting type 5 applications on time. They conduct outreach and
                      education efforts through conferences, in newsletters and notices to the
                      grantee community, and through site visits.
                                          In addition to ongoing outreach, NIH is in the process of implementing
                                          several initiatives that address underlying causes of late type 5 awards.
                                          These initiatives are related to launching an automated, online research
                                          administration system and targeting problem grantees.
                                          Electronic reminders to grantees about progress reports. In the summer
                                          of 2003, NIH developed an electronic system that notifies grantees of
                                          upcoming deadlines for type 5 applications. This is part of a wider NIH
                                          initiative, called Electronic Research Administration, to computerize all

    O E I - 01 - 03 - 0 0 0 2 0           N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S             13
F    I    N       D      I        N   G    S


                                          aspects of grants management into one integrated system. The system
                                          generates an email to the appropriate principal investigator 2 months
                                          prior to the application due date. Before this system was in place, NIH
                                          sent hardcopy reminders to grantees, but discontinued that approach in
                                          August 2002. Prior to implementing the automated system, NIH
                                          created a Web site for grantees to check on due dates periodically.
                                          Many grantee institutions remarked that NIH’s old system of notifying
                                          grantee institutions about due dates through paper reminders had been
                                          very helpful, and that they looked forward to the electronic notification
                                          system. (The system went into effect after we administered our survey.)
                                          NIH is developing a similar system for business officials at grantee
                                          institutions. NIH will send a monthly email to the appropriate business
                                          officials at grantee institutions, listing all the upcoming due dates for
                                          type 5 applications.
                                          Electronic submission of noncompeting applications. As another
                                          component of Electronic Research Administration, NIH has developed a
                                          system for many grantees to submit selected noncompeting applications
                                          electronically. This system makes it easier for grantees to complete and
                                          submit their applications and automatically checks the completeness of
                                          applications before accepting them. As a result, electronic submissions
                                          will likely help to mitigate the problem of incomplete applications. NIH
                                          piloted this program in November 2002 and implemented it more fully
                                          in the winter of 2004.
                                          Electronic submission of financial status reports. As of January 2003,
                                          grantees can submit financial status reports electronically to NIH. This
                                          helps to facilitate grantees submitting these reports, as well as NIH
                                          review. It also assists NIH in tracking which financial status reports
                                          have been reviewed and approved.
                                          Electronic review of type 5 applications by program officers. To facilitate
                                          the timely review of type 5 applications by program officers, NIH has
                                          developed a new application that will allow program officers to review
                                          and approve type 5 applications electronically.
                                          Targeting problem grantees. NIH’s Grants Management Advisory
                                          Committee, which is composed of the chief grants management officers of
                                          all the institutes, has formed a subcommittee, called the Compliance
                                          Education and Review Team, to address issues of grantee compliance.
                                          This group has plans to identify grantees with a pattern of submitting late
                                          type 5 applications. A workgroup of the Compliance, Education and

    O E I - 01 - 03 - 0 0 0 2 0           N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S            14
F    I    N       D      I        N   G    S


                                          Review Team, composed of institute grant specialists and officials from the
                                          Office of Extramural Research, is currently developing approaches to
                                          improve compliance and reduce future delinquencies.




    O E I - 01 - 03 - 0 0 0 2 0           N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S          15
�       R E C O M M E N D A T I O N S 




                              Thirty-five percent of type 5 awards have been issued late in the past
                              few years, due to late and incomplete applications, process delays, and
                              late budget appropriations. This has created problems at both NIH and
                              grantee institutions.
                              We recognize that NIH is already taking steps to address this issue
                              through electronic research administration and targeting problem
                              grantees, and that NIH’s resources are limited. Taking into account
                              these considerations, we recommend that NIH:
                                                                          A centralized system to monitor
       Develop a centralized system to monitor late
                                                                          late awards across institutes
                                                         awards.          would allow the Office of
                                                                          Extramural Research to identify
                              and address the key problems and bottlenecks that are causing late
                              awards. The current approach, documenting these problems and
                              bottlenecks in the individual grant files, is inefficient because it limits
                              systematic review and analysis.
                              The most straightforward way to accomplish this type of tracking is to
                              require all institutes to document in the Information Management,
                              Analysis and Coordination (IMPAC II) system, which is NIH’s grants
                              management database, the reason(s) why an award was late. Some
                              institutes (such as the National Heart, Lung, and Blood Institute) already
                              have internal systems that do this; these may provide useful models.
                              This system should distinguish whether a late award was due to the
                              grantee or institute process delays (or a combination). For grantee causes,
                              the system could capture when the application is late, and how late it is; it
                              could also capture when the application is incomplete, and which
                              element(s) is missing. For institute delays, the system could capture
                              delayed reviews by program officers or grants specialists, problems with
                              computer systems, and lost documents. This type of tracking would allow
                              NIH to detect patterns of problems, at the grantee and institute levels,
                              and note specific problems with particular grantees or institutes. The
                              National Cancer Institute has developed a prototype system that may be a
                              good starting point in terms of identifying specific elements related to the
                              grantee and the institute that contribute to late awards. (See Appendix
                              A).




O E I - 01 - 03 - 0 0 0 2 0   N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S            16
R    E      C       O      M      M   E    N      D      A     T      I    O      N      S




Address late awards more systematically by                              As we noted, 50 grantee institutions
                             focusing on grantee institutions.          accounted for more than half of all late
                                                                        awards in the past 3 years.
                                  Efficiencies could be gained if NIH followed up with a key administrator at
                                  these institutions, on the basis of an overall pattern of late applications or
                                  late awards. This approach could go far to reduce patterns of late or
                                  incomplete applications, thereby reducing the time and resources that
                                  NIH currently devotes to follow-up with individual grantees.
                                      NIH could provide feedback to grantee institutions through a Web site as
                                      part of electronic research administration. Each grantee institution could
                                      link to a summary report for its grantees. Ideally, the feedback would
                                      address each grantee institution’s overall performance for all the awards it
                                      received across NIH institutes; another option is for the institution to
                                      receive feedback on its performance for each NIH institute separately.
                                      NIH has taken an important first step through the Compliance, Education
                                      and Review Team committee’s efforts to identify institutions with patterns
                                      of late applications. We encourage the committee to maintain this focus as
                                      it develops a plan for addressing these problems, and to expand its scope
                                      to also look at the patterns of incomplete applications and other
                                      delinquencies.


                                      Agency Comments
                                      NIH reviewed a draft of this report and concurred with our
                                      recommendations. In its comments, NIH indicated additional steps that
                                      it is taking to address the timeliness of type 5 awards, such as
                                      developing a Web site as part of electronic research administration
                                      where grantees can obtain a list of all type 5 awards for their
                                      institutions and their due dates, implementing a monitoring tool to
                                      assist grants management officers with tracking the award process, and
                                      centralizing the receipt and tracking of type 5 applications. We
                                      appreciate NIH’s attention to these important issues. For the full text
                                      of the agency’s comments, see Appendix E.




    O E I - 01 - 03 - 0 0 0 2 0       N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S           17
        A P P E N D I X ~ A 




       Findings of the National Cancer Institute on late type 5 awards

                              Several institutes monitor late type 5 applications and awards in some
                              way, typically through an internal computer program. The National
                              Cancer Institute’s system is particularly noteworthy in that it captures
                              both late type 5 awards and their causes, and goes back to 1992.
                              Analysis by the National Cancer Institute found that 33 percent of its
                              type 5 awards were late in fiscal year (FY) 2002. Ten percent were late
                              due to internal delays, and 23 percent were late due to the grantee
                              institution. In addition, 41 percent of its type 5 applications were late
                              in FY 2002. Twenty percent were at least 30 days late, and 10 percent
                              arrived after the original budget period start date. Since 1992, an
                              average of 33 percent of its type 5 applications have been late. Further,
                              30 percent of type 5 applications were incomplete in FY 2002. The
                              major deficiencies were assurances for human and animal research,
                              streamlined noncompeting application questions, invention statements,
                              and financial status reports.
                              The National Cancer Institute developed a form that identifies internal
                              and external barriers that may prevent awards from being issued on
                              time. For each type 5 award, the grants specialist uses this form to
                              identify any problems in issuing the award, the follow-up action that
                              was taken, and how long it took to resolve the problems.




O E I - 01 - 03 - 0 0 0 2 0   N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S           18
�       A P P E N D I X                                       ~           B 



                              Methodology
                              Data Analysis
                              The National Institutes of Health (NIH) provided us with records of all
                              type 5 research project (R01), program project (P01), and cooperative
                              agreement (U01) grants awarded in fiscal year (FY) 2000 through FY
                              2002 across all institutes. These data came from a database
                              management system known as the Information for Management,
                              Planning, Analysis, and Coordination (IMPAC II). NIH uses IMPAC II
                              for managing and monitoring grants. NIH has used IMPAC II for
                              managing and monitoring grants for the past 10 years.
                              We focused specifically on R01, P01, and U01 awards, which are the
                              three most common funding mechanisms for type 5 extramural research
                              grants. R01 grants support individual research projects led by one
                              primary investigator. P01 grants support groups of researchers who are
                              all conducting studies related to a particular research objective. U01
                              grants are partnerships between researchers and NIH. We selected
                              these types of awards for our analysis of late awards because they
                              account for the greatest proportion of type 5 extramural research grants
                              awarded by NIH in terms of number and amount of funding, about 70
                              percent.
                              We received a dataset of 60,993 records. For each grant, the dataset
                              included the grant number, grantee institution, awarding institute,
                              amount of funding, end date of the previous budget period, start date of
                              the current budget period, and initial encumbrance date of the award.
                              We classified an award as late if the award issue date was 1 day or more
                              after the end date of the previous budget period, since NIH policy is to
                              issue the award before the start of the budget period.
                              We tallied the number and funding of late type 5 awards overall, as well
                              as by year, by grantee institution, by NIH institute, by funding
                              mechanism, and by number of weeks late. We performed our analyses
                                         �
                              using SAS software version 8.0, a statistical software package.

                              File Reviews
                              We reviewed the files for a stratified sample of 272, active type 5 R01
                              awards that were at least 30 days late at 3 institutes between FY
                              2000 and FY 2002. In order to concentrate on the most prominent
                              funding sources, we limited our population to three of the largest
                              institutes: the National Heart, Lung, and Blood Institute, the
                              National Institute of Allergy and Infectious Diseases, and the


O E I - 01 - 03 - 0 0 0 2 0   N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S           19
           A    P      P      E       N      D   I      X     ~     B


                                                     National Institute of General Medical Sciences. (For FY 2002, these
                                                     three institutes were in the top four in terms of number of extramural
                                                     research grants and amount funding for extramural research grants.)
                                                     We excluded the largest institute, the National Cancer Institute,
                                                     because it already has an active monitoring system in place to
                                                     identify late awards and their causes. We stratified our sample by
                                                     institute.
                                                     We intended to review the files associated with 300 awards. But,
                                                     because the National Institute of General Medical Sciences had only
                                                     76 active type 5 R01 awards that were at least 30 days late between
                                                     FY 2000 and FY 2002, our sample became 276 awards. The sample
                                                     included all 76 awards from the National Institute of General Medical
                                                     Sciences and a randomly selected sample of 100 awards each from the
                                                     220 National Heart, Lung, and Blood Institute files and the 174
                                                     National Institute of Allergy and Infectious Diseases that met our
                                                     criteria. Four awards in our sample were missing files at the
                                                     National Institute of Allergy and Infectious Diseases, so the final
                                                     number of awards included in our file review was 272 (See Table 5).

Table 5. Sample Design

                                                                     Population of Active                          Sample of Active              Final Dataset of Active
                                                                                                                                       Missing
           Strata for File Review                                    R01 Awards 30 Days                           R01 Awards 30 Days             R01 Awards 30 Days
                                                                                                                                        Files
                                                                           or More Late                              or More Late                    or More Late

National Heart, Lung, & Blood Institute                                            220                                   100              0               100

National Institute of Allergy & Infectious                                         174                                   100              4                96
Diseases

National Institute of General Medical                                               76                                    76              0                76
Sciences

Total                                                                              470                                   276              4               272

                                                     Source: OIG analysis, 2003.

                                                     An active awards is one that was still being funded by the institute at
                                                     the time of our review; we restricted our sample to active awards
                                                     because NIH stores files for inactive awards at off-site warehouses,
                                                     where they would not be readily available for our review.
                                                     We selected awards that were 30 days late or more in order to focus on
                                                     delays that are significant enough to become problematic for grantees.
                                                     Sixty-one percent of the grantee institutions indicated that late type
                                                     5 awards become a problem for them when more than 4 weeks late.



               O E I - 01 - 03 - 0 0 0 2 0           N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S                                           20
A    P      P      E       N      D   I      X     ~     B


                                          We limited our sample to one grant mechanism. We selected R01s
                                          because that mechanism is the most commonly used (accounting for
                                          67 percent of all type 5 awards in terms of number for FY 2002). For
                                          each late award in the sample, we documented the reason(s) why the
                                          award was late and whether the institute followed up with the
                                          grantee to notify them of the problem. If we could not determine why
                                          the award was late or whether follow-up occurred, we noted that.
                                          (Institutes may document the reason for a late type 5 award on the
                                          grants management worksheet [which the grants specialist fills out
                                          after reviewing the application], through records of correspondence
                                          with the grantee institution, or within the Notice of Grant
                                          Application. We could not find such documentation for 21 percent of
                                          the awards that we reviewed. Each institute also maintains internal
                                          computer systems where such information may be recorded, but staff
                                          told us that any information entered into those systems would be
                                          included in the grant files as well.) We also recorded the dates on
                                          which the program officer, grants management specialist, and chief
                                          grants management officer signed off on the funding.

                                          Institute Procedure Review
                                          We requested operating procedures related to type 5 applications and
                                          type 5 awards from all 24 institutes with grant-making authority.
                                          Nineteen of the 24 institutes with grant-making authority provided us
                                          with materials; the other 5 (the National Center for Research
                                          Resources, the National Eye Institute, the National Institute on Aging,
                                          the National Institute of Nursing Research, and the National Center on
                                          Minority Health and Health Disparities) did not maintain operating
                                          procedures specific to type 5 applications or awards at the time of our
                                          review. We included in our review any written procedures, instruction
                                          manuals, checklists, worksheets, timelines, flowcharts, and form letters
                                          that the institutes sent to us. We assessed the number of institutes that
                                          maintained guidelines related to (1) processing type 5 applications,
                                          (2) follow-up for late applications, (3) follow-up for incomplete
                                          applications, and (4) dealing with process delays.

                                          Survey of NIH Grantee Institutions
                                          We selected a simple random sample of 135 grantee institutions from
                                          the 375 locations that received 10 or more research grants from NIH in
                                          FY 2002. We restricted our sample to institutions with 10 or more
                                          research grants to ensure that they had a wide range of experiences
                                          with NIH so that any problems they reported with type 5 awards would
                                          not reflect an anomaly. We drew our sample from a list of 2,532
                                          institutions provided by NIH.

    O E I - 01 - 03 - 0 0 0 2 0           N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S           21
A    P      P      E       N      D   I      X     ~     B


                                          We oversampled by an additional 18 locations in order to obtain our
                                          desired sample size. From 153 grantee institutions, we eliminated
                                          2 foreign institutions, 2 institutions with incomplete contact
                                          information, and 14 duplicates (where 2 or more divisions of a research
                                          institution were included in our sample, we kept only the first entry in
                                          order to avoid duplication.)
                                          The survey contained seven questions on late awards, addressing the
                                          main factors that cause late type 5 applications and awards, the extent
                                          to which late type 5 awards create problems, and recommendations for
                                          improving the type 5 award process. We pretested our survey with
                                          grantee institutions.
                                          We addressed the survey to the business official identified by NIH. In
                                          cases where NIH had not identified a business official, we addressed the
                                          survey to a senior grants administrator. In both instances, we indicated
                                          in our cover letter that a senior grants administrator who is
                                          knowledgeable about NIH grants was to complete the survey.
                                          To ensure a high response rate, we first sent an introductory letter to
                                          each institution in our sample, explaining the significance of the survey.
                                          One week later, we mailed the survey. We followed up with a second
                                          survey for institutions that did not send back our survey within
                                          3 weeks.
                                          We received 111 responses, for a response rate of 82 percent.
                                          Nonrespondent analysis found no significant difference between
                                          respondents and nonrespondents in terms of average number and
                                          funding of research awards. (See Table 6 on this page and Table 7 on
                                          the next page.)
                                          The estimates given in the report are within plus or minus 7 percentage
                                          points at the 95 percent confidence level.

                                           Table 6. Nonrespondent Analysis by Number of
                                           Research Awards
                                                                                                  Average Number of Awards

                                              Sample (n=135)                                                108

                                              Respondents (n=111)                                           107

                                              Nonrespondents (n=24)                                         112

                                                             t=0.15                              Degrees of Freedom=133

                                          Source: OIG survey of NIH grantees, 2003




    O E I - 01 - 03 - 0 0 0 2 0           N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S                         22
A    P      P      E       N      D   I      X     ~     B




                                      Table 7. Nonrespondent Analysis by Amount of
                                      Funding
                                                                                             Average Amount of Funding

                                          Sample (n=135)                                               $37,550,528.82

                                          Respondents (n=111)                                          $37,303,671.78

                                          Nonrespondents (n=24)                                        $38,692,242.60

                                                         t=0.12                              Degrees of Freedom=133

                                          Source: OIG survey of NIH grantees, 2003


                                          Interviews with NIH Officials
                                          We interviewed a program officer, a grants management specialist, and
                                          the chief grants management officer at the National Heart, Lung, and
                                          Blood Institute, the National Institute of Allergy and Infectious
                                          Diseases, and the National Institute of General Medical Sciences. We
                                          discussed the causes and effects of late type 5 awards, any systems that
                                          the institutes had in place to monitor type 5 awards, and any barriers to
                                          issuing type 5 awards on time. We also solicited their recommendations
                                          for improving the type 5 award process.
                                          We also spoke with staff at the Office of Extramural Research and with
                                          institute administrators involved with NIH-wide grants administration
                                          efforts, who described the initiatives that NIH has planned or underway
                                          to reduce the likelihood of late type 5 applications and awards. We
                                          discussed the causes and effects of late type 5 awards, and any barriers
                                          to issuing type 5 awards on time. We also solicited their
                                          recommendations for improving the type 5 award process.




    O E I - 01 - 03 - 0 0 0 2 0           N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S                     23
               �              A P P E N D I X                                             ~           C 

                                Confidence Intervals for Key Findings
                                Below we provide the point estimate and 95 percent confidence interval for each of
                                our key findings. The point estimates and confidence intervals for the findings vary
                                based on the standard error for each individual finding.


                                                                                                                       Sample     Point     Confidence
      Data Source                                   Key Findings                                 Subfindings
                                                                                                                        Size    Estimate*    Interval

File review of late awards        Percent of type 5 applications                                                        272
                                  that were received late                                                                         55%         +/-4%


                                  Average number of days that                                                           156        43         +/-10
                                  type 5 applications were late


                                  Percent of type 5 applications                                                        272
                                  that were missing information                                                                   39%         +/-4%

                                                                                       Percent of incomplete type
                                                                                       5 applications missing           116
                                                                                                                                  49%         +/-6%
                                                                                       information on human
                                                                                       subject assurances
                                                                                       Percent of incomplete type
                                                                                       5 applications missing           116
                                                                                                                                  25%         +/-4%
                                                                                       financial status reports
                                                                                       Percent of incomplete type
                                                                                       5 applications missing           116
                                                                                                                                  23%         +/-6%
                                                                                       information on animal
                                                                                       research assurances
                                  Percent of incomplete or late
                                  applications that received                                                            206
                                  documented follow -up from                                                                      60%         +/-5%
                                  National Institutes of Health
                                  (NIH) staff

                                  Percent of late awards with any                                                       272
                                  kind of NIH process delay                                                                       12%         +/-3%


                                                                                       Percent of late awards with      272
                                                                                       a delayed review by NIH                     6%         +/-2%


                                                                                       Percent of late awards with
                                                                                       lost file or data entry          272        4%         +/-2%
                                                                                       problem due to NIH


                                *Note: Point estimates are weighted
                                Source: OIG analysis, 2003




                      O E I - 01 - 03 - 0 0 0 2 0         N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S                         24
             �                A P P E N D I X                                       ~           D
                                Late Type 5 Awards Among All Institutes, FYs 2000-2002 *

                                                                                        Number of                Number of      Percent of    Amount of Funding
                           Institute/Center                                           Late Type 5                Total Type 5   Late Type 5   Associated with the
                                                                                         Awards                    Awards        Awards       Late Type 5 Awards

Nat. Cancer Inst.                                                                          3,076                    8,264          37%        $1,565,162,883

Nat. Heart, Lung, & Blood Inst.                                                            2,788                    7,841          36%        $1,331,563,063

Nat. Inst. of Neurological Disorders & Stroke                                              2,472                    4,984          50%           $883,557,719

Nat. Inst. of Diabetes & Digestive & Kidney Diseases                                       2,111                    5,565          38%           $811,115,919

Nat. Inst. of Mental Health                                                                1,871                    3,340          56%           $684,988,441

Nat. Inst. of Allergy& Infectious Diseases                                                 1,717                    6,238          28%        $1,061,935,328

Nat. Inst. of Child Health & Human Development                                             1,463                    2,949          50%           $657,576,517

Nat. Inst. on Drug Abuse                                                                   1,216                    2,336          52%           $480,865,965

Nat. Inst. of General Medical Sciences                                                     1,189                    7,908          15%           $349,934,137

Nat. Eye Inst.                                                                             1,051                    2,235          47%           $306,203,339

Nat. Inst. of Arthritis & Musculoskeletal & Skin Diseases                                    834                    1,592          52%           $283,015,157

Nat. Inst. on Aging                                                                          554                    2,148          26%           $332,468,252

Nat. Inst. of Environmental Health Sciences                                                  420                    1,030          41%           $168,309,313

Nat. Inst. of Dental & Craniofacial Research                                                 223                    1,041          21%           $87,354,637

Nat. Inst. on Deafness & other Communication Disorders                                       140                    1,355          10%           $60,050,718

Nat. Inst. on Alcohol Abuse & Alcoholism                                                     114                    1,152          10%           $45,405,392

Nat. Inst. of Nursing Research                                                                59                     393           15%           $20,642,872

Nat. Library of Medicine                                                                      57                     82            70%           $17,480,321

Nat. Center for Research Resources                                                            49                     212           23%           $17,695,662

Nat. Center for Complementary & Alternative Medicine                                          45                     103           44%           $28,237,221

Nat. Human Genome Research Inst.                                                              40                     194           21%           $41,700,105

John E. Fogarty International Center                                                            6                    31            19%            $1,185,950

Overall Total                                                                             21,495                   60,993          35%          $9,236,448,911

          Source: OIG analysis of NIH data from IMPAC II, 2003


          *Although 24 Institutes have grant-making authority, only 22 issued type 5 awards in this timeframe




                      O E I - 01 - 03 - 0 0 0 2 0   N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S                                      25

A    P      P
0           A EP NP DE I N X D~ I A X A                          ~           E

                           Agency comments




    O E I - 01 - 03 - 0 0 0 2 0   N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S   26
A    P      P       E      N      D   I      X     ~      E




    O E I - 01 - 03 - 0 0 0 2 0           N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S   27

A    P      P       E      N      D   I      X     ~      E




    O E I - 01 - 03 - 0 0 0 2 0           N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S   28

A    P      P       E      N      D   I      X     ~      E




    O E I - 01 - 03 - 0 0 0 2 0           N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S   29

 �            A C K N O W L E D G M E N T S 




This report was prepared under the direction of Mark R. Yessian, Ph.D., Regional Inspector
General for Evaluation and Inspections in the Boston Regional Office, and Joyce M. Greenleaf,
MBA, Assistant Regional Inspector General. Other principal Office of Evaluation and Inspections
staff who contributed include:
                                    Aimee Golbitz, Team Leader

                                    Sara Schulman, Project Leader

                                    Danielle Fletcher, Program Analyst

                                    Genevieve Nowolinski, Program Specialist

                                    Ayana Everett, Program Specialist

                                    Elise Stein, Director, Public Health and Human Services

                                    Technical Assistance

                                    Barbara Tedesco, Mathematical Statistician




      O E I - 01 - 03 - 0 0 0 2 0   N I H GR A N T S M A N A G E M E N T : L A T E A W A R D S   30
   �                   E N D   N O T E S 





                               1   U.S. Department of Health and Human Services, Performance and
                                    Accountability Report Fiscal Year 2002, Appendix A.

                               2   45 CFR § 74 and 92.

                               3   NIH Grants Policy Statement, March 2001, p. 25.

                               4   NIH is comprised of 27 Institutes and Centers, such as the National
                                    Cancer Institute. Twenty-four institutes have grant-making
                                    authority.

                               5   NIH distinguishes grants by type. A type 1 award refers to funding for
                                    a new project, which must first undergo peer review. A type 2 award
                                    is an extension of a project that was scheduled to expire, and must also
                                    undergo peer review. Type 3 and type 4 awards allow for changes in
                                    either the budget or scope of research for a project that NIH is
                                    currently funding. Type 7 and type 9 awards reflect changes in either
                                    the grantee institution at which the research is taking place or the
                                    NIH institute overseeing the grant.

                               6   These are the most common funding mechanisms among single project,
                                    multiple project, and cooperative agreement awards, respectively.

                               7   NIH Grants Policy Statement, March 2001, p. 117.

                               8   NIH Manual, 5003 - Issuance and Recording of Grant Award
                                    Obligations, Release Date 7/1/89.

                               9   NIH Grants Policy Statement, March 2001, p. 96. Preaward spending is
                                    part of NIH’s expanded authorities.




O E I - 01 - 03 - 0 0 0 2 0    N I H G R A N T S M A N A G E M E N T : L A T E A W A R DS                 31
